No.

In the Supreme Court of the United States
ADAM LLOYD COOPER,
PETITIONER,

V.
UNITED STATES OF AMERICA,
RESPONDENT,

PROOF OF SERVICE

I, LANE ANDREW HAYGOOD, do swear or declare that on this date, February 8,
2021, as required by Supreme Court Rule 29, I have deposited a package containing the
Motion for Leave to Proceed In Forma Pauperis and the Petition for Certiorari with Federal
Express, with shipping prepaid for standard overnight delivery to the Clerk of this Court.
I have served the documents on Respondent by FedEx, Standard Overnight
Delivery, to the following address: Solicitor General of the United States, Department of
Justice, 950 Pennsylvania Avenue NW, Washington, D.C. 20530-0001, and by electronic
mail today to the Office of the Solicitor General at SuprerneCtBriefs@USDO.J.gov.
I further certify that all parties required to be served have been served. I declare
under penalty of perjury that the foregoing is true and correct.
Executed on February 8, 2021.

LANE

A. HAYGOOD

Counsel of Record
HAYGOOD LAW FIRM

522 North Grant Avenue
Odessa, Texas 79761
432.337.8514

lane@haygoodlawfinn.com

